                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS
                                                                        I


                                               CLOSEOUT MEMORANDUM
                                                                                     111


 Case Number: 1-07-10-0038                                                                      Page I of 1
                                                                        1

                                                                                                     I



          This investigation was opened pursuant to a proactive review of awards for which no final
          project reports have been submitted and for which funds heve been drawn-down after the
          expiration dates. A review of NSF databases revealed an award' for which funds2 had been
          drawn-down over 200 days beyond the expiration date.

          A review of the financial records, provided by the awarde?:, revealed that no expenses were
          incurred after the expiration date of the award.

          In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed.
                                                                                                              Il




NSF OIG Fonn 2 ( 1 1/02)

                                                                            '!
